Case: 20-16972, 04/13/2021, ID: 12073159, DktEntry: 10, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 13 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

DONNELL BLEDSOE,
Plaintiff-Appellant,
v.

STOCKTON POLICE DEPARTMENT; et
al.,

No. 20-16972
D.C. No. 2:20-cv-01654-KJM-KJN
Eastern District of California,
Sacramento
ORDER

Defendants-Appellees.
Before: CLIFTON, MURGUIA, and BRESS, Circuit Judges.
Upon a review of the record, the response to the court’s February 24, 2021
order to show cause, and the opening brief filed December 2, 2020, we conclude
this appeal is frivolous. Appellant’s argument that he has alleged war crimes and
crimes against humanity that are not subject to any statute of limitations is wholly
without merit. See 18 U.S.C. § 2441(c) (defining war crimes); Rome Statute of the
International Criminal Court, art. 7(1), U,N. Doc. A/CONF.183/9 (July 17, 1998)
(defining crimes against humanity). We therefore dismiss this appeal as frivolous
pursuant to 28 U.S.C. § 1915(e)(2) (court shall dismiss case at any time, if court
determines it is frivolous).
All other pending motions are denied as moot.
DISMISSED.

LCC/MOATT

Case 2:20-cv-01654-KJM-KJN

Document 3 Filed 09/01/20 Page lot 7

1
2
3
4
5

6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

DONNELL BLEDSOE,

12

Plaintiff,

13

v.

14

No. 2:20-cv-01654-KJM-KJN PS
ORDER and FINDINGS AND
RECOMMENDATIONS
(ECF No. 3.)

CITY OF STOCKTON POLICE DEPT, et
al.,

15

Defendants.

16
17

Plaintiff, who is proceeding without counsel in this action, has requested leave to proceed

18

in forma pauperis pursuant to 28 U.S.C. § 1915.1 (ECF No. 2.) Plaintiff s application in support

19

of his request to proceed in forma pauperis adequately makes the showing required by 28 U.S.C.

20

§ 1915. Accordingly, the court grants plaintiffs request to proceed in forma pauperis.
A determination that a plaintiff may proceed in forma pauperis does not end the inquiry.

21
22

Pursuant to 28 U.S.C. § 1915, the court is directed to dismiss the case at any time if it determines

23

that the allegation of poverty is untrue, or if the action is frivolous or malicious, fails to state a

24

claim on which relief may be granted, or seeks monetary relief against an immune defendant.

25

Here, plaintiffs complaint fails to state a claim on which relief may be granted because his claims

26

either are barred by the applicable statute of limitations or are frivolous.

27
28

i

This action proceeds before the undersigned pursuant to Local Rule 302(c)(21) and 28 U.S.C.
§ 636(b)(1).
1

Case 2:20-cv-01654-KJM-KJN

Document 3 Filed 09/01/20 Page 2 of 7

1

BACKGROUND

2

Plaintiff alleges that on July 1, 2005, Stockton police officers entered his home without a

3

warrant and caused him bodily harm, ultimately rendering him unconscious. (Id. at 7-11.)

4

Plaintiff was transported to the police department while still unconscious (it is unclear when he

5

regained consciousness). (Id at 9.) After booking, plaintiff was assaulted by an informant in the

6

waiting cell. (Id.) As a result, plaintiff was sent to the San Joaquin General Hospital, and was

7

returned to jail after being treated. (Id.) Plaintiff was charged with five offenses, posted bail, and

8

was released from custody. (Id at 9, 12.) Shortly after the July 1, 2005 incident, Stockton police

9

officers surrounded plaintiffs home, but plaintiff was in Texas. (Id at 7-11.) All of the pending

10

criminal charges surrounding these two incidents, except resisting arrest, were dropped. (Id.)

11

Plaintiff asserts claims against the City of Stockton Police Department and four Stockton

12

police officers. (ECF No. 1.) He asserts claims under 42 U.S.C Sections 1983, 1984, 1985, and

13

1986 for “civil rights violations,” “deprivation of liberty,” and “unlawful entry.” (Id. at 7.) He

14

also asserts violations of “Article 189.51,” California Penal Code Section 602, and common-law

15

defamation. (Id at 11.) (Id)

16

DISCUSSION

17

Legal Standard

18

A claim may be dismissed because of the plaintiffs “failure to state a claim upon which

19

relief can be granted.” See Fed. R. Civ. P. 12(b)(6). This type of dismissal may be based on the

20

lack of a cognizable legal theory or on the absence of sufficient facts alleged under a cognizable

21

legal theory. Mollett v. Netflix. Inc.. 795 F.3d 1062, 1065 (9th Cir. 2015). In evaluating whether

22

a pleading states sufficient facts on which to base a claim, all well-pled factual allegations are

23

accepted as true, Erickson v. Pardus. 551 U.S. 89, 94 (2007), and the complaint must be construed

24

in the light most favorable to the non-moving party, Corrie v. Caterpillar. Inc.. 503 F.3d 974, 977

25

(9th Cir. 2007). The court is not, however, required to accept as true “conclusory allegations that

26

are contradicted by documents referred to in the complaint,” or “legal conclusions merely because

27

they are cast in the form of factual allegations.” Paulsen v. CNF Inc., 559 F.3d 1061, 1071 (9th

28

Cir. 2009). Thus, to avoid dismissal for failure to state a claim, a complaint must contain more
2

Case 2:20-cv-01654-KJM-KJN Document 3 Filed 09/01/20 Page 3 of 7
1

than “naked assertions,” “labels and conclusions,” or “a formulaic recitation of the elements of a

2

cause of action.” Bell Atl. Corp. v. Twomblv, 550 U.S. 544, 555-57 (2007). Simply, the

3

complaint “must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that

4

is plausible on its face.’” Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009) (citing Twomblv. 550 U.S.

5

at 570). Plausibility means pleading “factual content that allows the court to draw the reasonable

6

inference that the defendant is liable for the misconduct alleged.” Id

7

Pro se pleadings are to be liberally construed. Hebbe v. Pliler. 627 F.3d 338, 342 & fn.7

8

(9th Cir. 2010) (liberal construction appropriate even post-Iqbal). A pro se litigant is entitled to

9

notice of the complaint's deficiencies and an opportunity to amend prior to dismissal of the action,

10

unless it is absolutely clear that no amendment can cure the defect. Lucas v. Dep't of Corr.. 66

11

F.3d 245, 248 (9th Cir. 1995): see also Cahill v. Liberty Mut. Ins. Co.. 80 F.3d 336, 339 (9th Cir.

12

1996) (if amendment would be futile, no leave to amend need be given).
Analysis

13
14

15

Cal. Penal Code Section 602,42 U.S.C. Section 1984, and “Article 189.51” claims are
frivolous.

16

In his complaint, plaintiff attempts to bring a state law criminal charge, California Penal

I.

17

Code § 602, against the defendants. (ECF No. 1 at 6.) However, a citizen does not have

18

authority to bring criminal charges. Clinton v. Jones. 520 U.S. 681, 718 (1997) (“Criminal

19

proceedings, unlike private civil proceedings, are public acts initiated and controlled by the

20

Executive Branch.”) The U.S. Criminal Code does not establish any private right of action and

21

therefore cannot support a civil lawsuit. See Aldabe v. Aldabe. 616 F.2d 1089, 1092 (9th Cir.

22

1980) (criminal provisions provide no basis for civil liability). Accordingly, the court

23

recommends the Section 602 claim be dismissed with prejudice.

24

Plaintiffs complaint also purports to assert claims under 42 U.S.C. § 1984 and Article

25

189.51. The court sees no such statutes in existence. Thus, the court recommends both of these

26

claims be dismissed with prejudice as frivolous. See Cook v. Peter Kiewit Sons Co.. 775 F.2d

27

1030, 1035 (9th Cir. 1985) (finding appropriate district court’s dismissal of “wholly frivolous”

28

claims) (citing Hagans v. Lavine. 415 U.S. 528, 536-39 (1974)).
3

Case 2:20-cv-01654-KJM-KJN Document 3 Filed 09/01/20 Page 4 of 7
1
2

II.

Plaintiffs remaining claims are barred by the statute of limitations.
The court finds that plaintiffs 42 U.S.C. Sections 1983, 1985, and 1986 claims, as well as

3

his defamation claim, are barred by the applicable statute of limitations, as the claims apply to

4

events that transpired in 2005.

5

The court begins a statute of limitations analysis by determining when plaintiff s claims

6

accrued. See Miller v. Naiera. 2020 WL 731176, at *6-7 (E.D. Cal. Feb. 13, 2020). “Under

7

federal law, a claim accrues when a plaintiff knows or has reason to know of the injury which is

8

the basis of the action.” TwoRivers v. Lewis. 174 F.3d 987, 991 (9th Cir. 1999).

9

For plaintiff s claims under federal law, Sections 1983, 1985, and 1986, the statute of

10

limitations began to accrue on July 1, 2005, the same day that plaintiff alleges he was assaulted

11

by the officers. (ECF No. 1 at 8-9.) See, e.g.. Shaw v. Sacramento Ctv. Sheriffs Dep't. 810 F.

12

App'x 553, 554 (9th Cir. 2020) (finding plaintiffs 1983 claim for excessive force time barred

13

because it accrued at the time the force was used, which was more than two years prior to filing

14

of complaint).

15

As for his defamation claim, plaintiff does not specify when or how the alleged

16

defamation occurred. However, the defamation claim appears to be related to the July 1, 2005

17

arrest, as plaintiffs complaint states that the “charges on my record ha[ve] cause[d] me

18

treme[n]dous depression],” and that his “name has been dragged through the mud by this being

19

on my record.” (ECF No. 1 at 10-11.) The criminal charges were brought against plaintiff on

20

July 1, 2005, and the complaint is absent of any charges related to the second incident, when

21

police officers arrived to plaintiffs home while he was in Texas. (ECF No. 1 at 12.) Absent any

22

other allegations in plaintiffs complaint, the elements of the defamation claim were complete on

23

July 1, 2005. See, e.g.. Roberts v. McAfee. Inc.. 660 F.3d 1156, 1166 (9th Cir. 2011) (cause of

24

action for defamation under California common law accrued when plaintiff had reason to know of

25

the allegedly offending material: at publication).

26

Next, the court applies the statute of limitations applicable to each claim to determine

27

whether the statute of limitations lapsed before plaintiff filed the present action. Miller. 2020 WL

28

731176, at *7. Title 42 U.S.C. Sections 1983 and 1985 contain no statute of limitations, so
4

Case 2:20-cv-01654-KJM-KJN Document 3 Filed 09/01/20 Page 5 of 7
1

federal courts in California typically apply the state’s “statute of limitations for personal injury

2

actions, along with the forum state’s law regarding tolling.” Canatella v. Van De Kamp. 486 F.3d

3

1128, 1132 (9th Cir. 2007); see also McDougal v. County of Imperial. 942 F.2d 668, 673-74 (9th

4

Cir. 1991) (holding that Section 1985 claims should be governed by the same statute of

5

limitations as 1983 claims). In California, personal injury claims must be brought within two

6

years. California Code of Civil Procedure § 335.1 (2020). As such, the statute of limitations for

7

the § 1985 and § 1985 claims expired on July 1, 2007, two years after the first incident plaintiff

8

alleges. Assuming the second incident that occurred shortly after the July 1, 2005 incident could

9

give rise to any claims under these sections, the statute of limitations would still expire sometime

10

in July 2007. Plaintiff filed the present action on August 17, 2020, approximately thirteen years

11

after the claims accrued. (ECF No. 1.) Thus, plaintiffs Section 1983 and § 1985 claims are

12

time-barred.
Unlike 42 U.S.C. Sections 1983 and 1985, the statute of limitations for claims predicated

13
14

on 42 U.S.C. Section 1986 originates within the statute itself. Actions under this statute “must

15

be commenced within one year after the cause of action has accrued.” 42 U.S.C. § 1986. The

16

complaint lacks any factual support indicating a failure on behalf of any named party to prevent a

17

conspiracy to deprive plaintiff of equal protection of the laws. The incidents alleged occurred in

18

July 2005. (ECF No. 1 at 7-11.) The one-year statute of limitations expired sometime in July

19

2006. Plaintiff filed the present action on August 17, 2020, approximately fourteen years after

20

the claim accrued. (ECF No. 1.) Therefore, plaintiffs Section 1986 claim is also time-barred.

21

Lastly, plaintiff includes a defamation claim in his complaint. (ECF No. 1 at 11.)

22

According to California Code of Civil Procedure § 340(c), an action for libel or slander must be

23

brought within one year from the time the elements of the claim are complete. Roberts. 660 F.3d

24

at 1166. Plaintiffs defamation claim accrued in July 2005, so it follows that the claim expired in

25

July 2006. Plaintiff filed the present action on August 17, 2020, approximately fourteen years

26

after the defamation elements were complete. (ECF No. 1.)
Thus, all of plaintiffs claims are barred by the applicable statute of limitations.

27
28

III
5

Case 2:20-cv-01654-KJM-KJN Document 3 Filed 09/01/20 Page 6 of 7

1
2

III.

Granting leave to amend would be futile, given the statute of limitations bar.
A pro se litigant is entitled to notice of the complaint's deficiencies and an opportunity to

3

amend prior to dismissal of the action, unless it is absolutely clear that no amendment can cure

4

the defect. Lucas v. Den't of Corr.. 66 F.3d 245, 248 (9th Cir. 1995); see also Cahill v. Liberty

5

Mut. Ins. Co.. 80 F.3d 336, 339 (9th Cir. 1996) (if amendment would be futile, no leave to amend

6

need be given). Here, it would be futile to grant plaintiff leave to amend because plaintiff cannot

7

plead any additional facts to cure for the statute of limitations issues.

8
9

Out of an abundance of caution, the court has analyzed the numerous tolling provisions
allowed litigants when faced with a statute of limitations bar. Based on the information provided,

10

the only provision that might theoretically apply is California’s tolling provision for when a

11

plaintiff is “imprisoned on a criminal charge, or in execution under of the sentence of a criminal

12

court for a term for less than for life’” at the time the elements of the claim have accrued.

13

California Code of Civil Procedure § 352.1(a); See Miller. 2020 WL 731176, at *8. However,

14

this provision only tolls the limitations period for up to two years. Id Plaintiff does not plead

15

any facts to show that he was imprisoned on a criminal charge at the time the claim accrued or

16

executing a sentence other than a life sentence. Plaintiffs claims accrued prior to being taken

17

into custody, because he was at home when the police officers allegedly went into his home and

18

caused him bodily harm. (ECF No. 1 at 8-9.) According to the complaint, plaintiff was then

19

taken into custody and charged with criminal offenses, but was later released on bail. (ECF No.

20

1). Regarding the second incident when the police officers allegedly surrounded plaintiffs home

21

while he was away in Texas, plaintiff claims that this incident occurred shortly after the first

22

incident, presumably sometime in July 2005. Even if the tolling statute did apply to one of the

23

two incidents, the statute of limitations still would have expired by July 2009. Thus, the court

24

sees no application of Section 352.1 that could toll the limitations period for over a decade.

25
26
27

28

Beyond this the court sees no tolling provision that could apply to plaintiffs case, and so
finds granting leave to amend would be futile. Cahill. 80 F.3d at 339.
IT IS HEREBY ORDERED that the plaintiffs motion to proceed in forma pauperis is
granted.
6

Case 2:20-cv-01654-KJM-KJN Documents Filed 09/01/20 Page 7 of 7

1

RECOMMENDATIONS

2

Accordingly, IT IS HEREBY RECOMMENDED that:

3

1. Plaintiff s complaint be DISMISSED WITH PREJUDICE; and

4

2. The Clerk of the Court be directed to CLOSE this case.

5

These findings and recommendations will be submitted to the United States District Judge

6

assigned to the case, pursuant to 28 U.S.C. § 636(b)(1). Within fourteen (14) days after being

7

served with these findings and recommendations, Plaintiff may file written objections with the

8

Court. The document should be captioned “Objections to Magistrate Judge’s Findings and

9

Recommendation.” Plaintiff is advised that failure to file objections within the specified time

10

frame may result in the waiver of the “right to challenge the magistrate’s factual findings” on

11

appeal. Wilkerson v. Wheeler. 722 F.3d 834, 839 (9th Cir. 2014) (citing Baxter v. Sullivan. 923

12

F.2d 1391, 1394 (9th Cir. 1991)).

13

Dated: September 1, 2020

14
KENDALL I NEWMAN
UNITED STATES MAGISTRATE JUDGE

15
bled. 1654

16
17
18
19
20

21
22
23
24
25

26
27
28
7

Case 2:20-CV-01654-KJM-KJN Document 7 Filed 10/01/20 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
DONNELL BLEDSOE,
CASE NO: 2:20-CV-01654-KJM-KJN
V.

CITY OF STOCKTON POLICE DEPT., ET
AL.,

Decision by the Court. This action came before the Court. The issues have been tried,
heard or decided hy the judge as follows:
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT'S ORDER FILED ON 10/1/2020

Keith Holland
Clerk of Court
ENTERED: October 1, 2020
hv: /s/ A. Tnpolo

Deputy Clerk

I

t’

.UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

1VIAY 05 2021
MOLLY C. DWYER, CLERK
U.S. COLIRT OF APPEALS

DONNELL BLEDSOE,
Plaintiff - Appellant,
v.
STOCKTON POLICE
4 DEPARTMENT; et al.,

No. 20-16972
D.C. No. 2:20-cv-01654-KJM-KJN
U.S. District Court for Eastern
-California,-Sacramento----- —---MANDATE

Defendants - Appellees.

The judgment of this Court, entered April 13, 2021, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule *
41(a) of the Federal Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT—
By: Quy Le
Deputy Clerk
, Ninth Circuit Rule 27-7

%

•'

